                                              Report Number:
                                             DoDIG-2012-142
                                          September 28, 2012




DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE
    AND SPECIAL PROGRAM ASSESSMENTS



   Summary Report of FY 2011 Inspections on
 Security, Intelligence, Counterintelligence, and
Technology Protection Practices at DoD Research,
  Development, Test, and Evaluation Facilities




     FOR OFFICIAL USE ONLY
Additional Information and Copies

For information and to request copies of this summary, contact the DoD Office of
                               (b)(6)             (b)(6)
Inspector General at (703) 882-       or DSN 381-        .

Suggestions for Future Audits and Evaluations
To suggest ideas for, or to request future audits or evaluations, contact the Office of the
Deputy Inspector General for Intelligence and Special Program Assessments at
           (b)(6)            (b)(6)
(703) 882-        (DSN 381-         ) or UNCLASSIFIED fax (571) 372-7451. Ideas and
requests can also be mailed to:

                       ODIG-ISPA (ATTN: ISPA Suggestions)
                       Department of Defense Inspector General
                       4800 Mark Center Drive (Suite 10J25)
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACAT                           Acquisition Category
AFOSI                          Air Force Office of Special Investigations
CPI                            Critical Program Information
DoD CIO                        DoD Chief Information Officer
DSS                            Defense Security Service
IG                             Inspector General
MDA                            Missile Defense Agency
NCIS                           Naval Criminal Investigative Service
OIG                            Office of Inspector General
OPSEC                          Operations Security
PM                             Program Manager
RDA                            Research, Development, and Acquisition
RDT&E                          Research, Development, Test, and Evaluation
USD(AT&L)                      Under Secretary of Defense for Acquisition, Technology,
                                       and Logistics
USD(I)                         Under Secretary of Defense for Intelligence




                              FOR OFFICIAL USE ONLY
DISTRIBUTION:

OFFICE OF THE SECRETARY OF DEFENSE
  Under Secretary of Defense for Acquisition, Technology, and Logistics
  Under Secretary of Defense for Policy
  Under Secretary of Defense for Intelligence
  DoD Chief Information Officer
  Director, Defense Information Systems Agency
  Director, Defense Security Service

DEPARTMENT OF THE ARMY
  Assistant Secretary of the Army for Acquisition, Logistics, and Technology
  Commanding General, Army Materiel Command
      G-2, Army Materiel Command
  Deputy Chief of Staff, G-2
  Inspector General, Department of the Army
      Auditor General, Department of the Army Service

DEPARTMENT OF THE NAVY
  Assistant Secretary of the Navy for Research, Development, and Acquisition
  Naval Criminal Investigative Service
  Naval Inspector General
  Auditor General of the Navy

DEPARTMENT OF THE AIR FORCE
  Assistant Secretary of the Air Force for Acquisition
  Administrative Assistant to the Secretary of the Air Force
  Inspector General, Department of the Air Force
  Commander, Air Force Materiel Command
  Commander, Air Force Office of Special Investigations
  Auditor General of the Air Force

CONGRESSIONAL COMMITTEES AND SUBCOMMITTEES, CHAIRMAN AND
  RANKING
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Select Committee on Intelligence
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Armed Services
  House Permanent Select Committee on Intelligence
  House Committee on Oversight and Government Reform
  House Subcommittee on Government Management, Organization, and
     Procurement, Committee on Oversight and Government Reform
  House Subcommittee on National Security and Foreign Affairs, Committee on
     Oversight and Government Reform


                            FOR OFFICIAL USE ONLY
Report No. DoDIG-2012-142 (Project No. D2012-DINT01-0162.000)                 September 28, 2012

               Results in Brief: Summary of FY 2011
               Inspections on Security, Intelligence,
               Counterintelligence, and Technology
               Protection Practices at DoD Research,
               Development, Test, and Evaluation Facilities
What Was Done                                     Moreover, the level of training related to CPI
This summary is a compilation of inspection       protection varied, with some personnel with no
results from the DoD, Service, and Missile        training, others with training acquired on the job
Defense Agency (MDA) Offices of Inspectors        and still others with training offered by the
General (OIG) and, where available, notes the     research, development, and acquisition (RDA)
best practices of each. The DoD OIG assessed      program support organization.
an acquisition category 1D program; the Service
IGs selected 34 of 118 research, development,     Resources. DoD OIG’s assessment found no
test, and evaluation (RDT&E) facilities under     embedded program security support. The
their purview for inspection; and the MDA         program management office did not track all
looked at the effectiveness of their critical     security costs nor did they report program
program information (CPI) identification and      protection or security-related expenditures, in
program protection planning efforts, as well as   order to establish budget projections for security
their international security program. These       throughout the program’s life-cycle and with
inspections ensure a uniform system of periodic   measuring the return on the security
reviews for compliance with directives            expenditures.
concerning security, intelligence,
counterintelligence, and technology protection    Security and Other Support. Although
practices. The OIGs used the biennial             program staff requested and were provided
inspection guidelines that focus on eight key     intelligence support, it was not timely nor
issue areas related to program protection.        tailored to CPI, adversely affecting the PM’s
                                                  ability to implement an effective program
What Was Found                                    protection plan. Service findings ranged from
Identifying CPI. Generally, an effective          PMs not using counterintelligence assets
process for identifying CPI was found, with       correctly to counterintelligence assets being
some having a standardized process for            spread thin due to deployments and ad-hoc
identifying CPI. However, 5 of the 35 sites       tasking.
inspected did not adequately identify specific
CPI.                                              Foreign Visitor Program. No major issues
                                                  were noted with the effectiveness of the
Program Protection Planning. Efforts to           programs inspected. MDA was using the
protect CPI are not integrated and synchronized   Foreign Visits System – Confirmation Module.
to the greatest extent possible. In some
instances, program protection plans were not      Horizontal Protection. Data from an Air Force
completed and could not be assessed. However,     program was on a separate horizontal protection
in general CPI was incorporated into program      database, but recent guidance will allow Air
protection plans.                                 Force to use the Acquisition Security Database.

Training and Education. Training for the          CPI Policies. While DoD and Service policies
protection of CPI was not tailored for            to protect CPI have progressed in recent years,
intelligence and security personnel; and some     there is still a need for improvement.
personnel were not qualified to do the job.
                                                i USE ONLY
                                      FOR OFFICIAL
Table of Contents
Introduction                                                                     1

   Scope and Methodology                                                         1

   Background                                                                    1

Issue Areas for Assessment and Inspection

   Critical Program Information (CPI) Identification and Criticality Analysis   2

   Program Protection Planning                                                   4

   Training and Education to Protect Critical Program Information, Critical
        Functionality, and Critical Components                                   6

   Use of Resources/Billets to Protect Critical Program Information, Critical
       Functionality, and Critical Components                                    7

   Security, Intelligence, and Counterintelligence Support to Protect
       Critical Program Information, Critical Functionality, and
       Critical Components                                                       9

   Foreign Visits Program                                                       12

   Horizontal Protection of Critical Program Information, Critical
       Functionality, and Critical Components                                   14

   Policies to Protect Critical Program Information, Critical
        Functionality, and Critical Components                                  16

Appendices

   A. Memorandum of Understanding                                               18

   B. List of Service Facilities Inspected                                      22




                             FOR OFFICIAL USE ONLY
Introduction
In accordance with DoD Instruction 5200.39, “Critical Program Information (CPI)
Protection Within the Department of Defense,” July 16, 2008, Enclosure 2, paragraph 5,
this report consolidates the assessment and inspection results of participating Inspectors
General (IGs) who inspect technology protection, security, intelligence, and
counterintelligence practices at RDT&E facilities.

Scope and Methodology
This summary covers inspections of security, intelligence, counterintelligence, and
technology protection, activities at DoD RDT&E facilities conducted by or at the
direction of the participating IGs, as outlined in Appendix A. It also includes the results
of the second in a series of three reports by the DoD OIG, 1 Report No. 11-INTEL-08,
“DoD Efforts to Protect Critical Program Information: The Air Force’s Family of
Advanced Beyond Line-of-Sight Terminals,” April 15, 2011.

The DoD OIG consolidates and distributes the lists of major RDT&E facilities to the
participating IGs, the Assistant Secretary of Defense for Research and Engineering, and
the Director, Defense Test Resource Management Center. The Assistant Secretary of
Defense for Research and Engineering and the Director, Defense Test Resource
Management Center, may recommend additional Defense agency facilities for inspection.
The participating IGs select from their respective lists those facilities that will be
inspected and forward the selections to the DoD OIG, as outlined in Appendix B.

The inspections were performed during the course of the inspection programs of the
participating IGs, to include, in the case of military IGs, the inspection programs of their
subordinate IGs. To ensure uniformity and consistency of inspections, the DoD OIG
biennially issues guidelines for DoD IGs. The participating IGs coordinate modifications
or customizations of the inspection guidelines. The participating IGs conducting or
directing inspections ensure that inspection findings and recommendations are addressed
and implemented.

The participating IGs use their own procedures to write findings and recommendations
within their respective areas of responsibility. The participating IGs prepare and forward
any significant findings and recommendations, upon the conclusion of each inspection to
the DoD OIG and the DoD OIG produces this summary. The DoD OIG did not review or
verify the information provided.

Background
In 2010, the DoD OIG published the latest biennial version of inspection guidelines for
use by IGs and other oversight practitioners to enhance the protection of CPI. Different
from previous years, the guidelines are tailored to focus on the eight key issue areas that
assist in determining the effectiveness to protect CPI.




1
  The Office of the Deputy Inspector General for Intelligence and Special Program Assessments is the
Office of Primary Responsibility within the DoD OIG for matters relating to inspections of RDT&E
facilities.

                                  FOR OFFICIAL USE ONLY
                                            1
The inspection guidelines were developed to provide consistency across the Department
when assessing security, intelligence, and counterintelligence support to RDA protection
efforts aimed at protecting CPI. The guidelines focus on eight key issue areas that assist
in determining the effectiveness to protect CPI. The eight key issue areas for inspections
(with additions to this iteration highlighted) to address are:

   1. CPI identification and criticality analysis;
   2. program protection planning;
   3. training and education to protect CPI, critical functionality, and critical
      components;
   4. use of resources/billets to protect CPI, critical functionality, and critical
      components;;
   5. security, intelligence, and counterintelligence support to protect CPI, critical
      functionality, and critical components;
   6. foreign visits program;
   7. horizontal protection of CPI, critical functionality, and
      critical components; and
   8. policies to protect CPI, critical functionality, and critical components.

Success in each of the eight key issue areas leads to enhanced counterintelligence,
intelligence, and security support to RDT&E facilities and the acquisition process.
Focusing the annual inspections on these eight key areas provides a better ability to
identify trends and systemic issues.

The office of the USD(AT&L), provided a chart depicting the vast amounts of policy
related to RDA protection. The chart found at the link below, organizes acquisition
security policies and guidance by purpose and 23 offices of responsibility. The chart
shows the 145 policies that an acquisition program may need to comply with.
http://www.acq.osd.mil/se/docs/acq-security-policy-tool/index.html.

1. Critical Program Information (CPI) Identification and
Criticality Analysis
This issue area was assessed to determine whether published guidance for the
identification of CPI is relevant and adhered to by program, security, intelligence, and
counterintelligence personnel. We also sought to determine whether there was a
working-level integrated product team to assist with and collaborate on the identification
of CPI. If so, we wanted to assess how the mission, composition, and effectiveness of the
working-level integrated product team contributed to the identification of CPI and
whether the working-level integrated product team performed a functional decomposition
of the program or system.

DoD Office of Inspector General
In the case study of the acquisition category (ACAT) ID Air Force program, the program
office staff had an effective process for identifying CPI and an integrated product team
comprised of systems engineering, information assurance, engineering management,
business management, software engineering experts, and the Air Force Office of Special
Investigations (AFOSI). Security, counterintelligence, intelligence, and user
representatives served in an advisory capacity. The Air Force program successfully used
a cross-discipline integrated product team that included systems engineers in accordance
with the DoD Instruction 5200.39 requirement for cross-discipline teams.


                             FOR OFFICIAL USE ONLY
                                       2
Office of the Army Inspector General
The Office of the Army IG had no significant findings in this issue area.

Office of the Naval Inspector General
Commands inspected had a standardized process for identifying CPI in accordance with
governing instructions; and anti-tampering procedures were instituted where applicable.

Office of the Air Force Inspector General
Of the twenty-two inspected, five of six Center’s PMs did not adequately identify specific
CPI. PMs identified operations security information as CPI. PMs also identified broad
CPI categories without proper drill down to identify CPI. The Air Force IG
recommended that programs conduct more in-depth training and that PMs conduct full
system decomposition of programs and work with associated programs to identify CPI
and inherited CPI, and include support contractors in CPI protection efforts. One agency
did not coordinate with owning sub-system program offices to obtain program protection
plans so they could identify inherited CPI and associated countermeasures.

Missile Defense Agency (MDA)
MDA reviewed steps taken during the CPI assessment phase for one program. The
program was selected because it was the first to execute the CPI assessment phase
following issuance of MDA’s new instruction, MDA Instruction 5200.08-INS, “Critical
Program Information Protection Within the Missile Defense Agency,” August 1, 2011,
and draft CPI protection manual. Specifically, MDA identified and surveyed members of
the integrated product team, determined if immediate countermeasures were identified,
and determined if MDA 5200.08-INS and the MDA CPI protection manual were
followed. The program used the following in identifying and protecting CPI during the
CPI assessment phase:

   •   The program’s integrated product team had a diverse workgroup to represent the
       key areas involved during the CPI/program protection planning process including
       acquisition, engineering, security, intelligence, and counterintelligence personnel.
   •   The functional decomposition list, which breaks down the entire program into
       smaller more tangible segments, included the areas evaluated for CPI and
       indentified sources and references.
   •   The integrated product team identified broad immediate countermeasures after the
       identification of candidate CPI.
   •   The Director for Engineering appropriately chaired and initiated the Acquisition
       Program Protection Panel to review and approve the candidate CPI, and signed
       the CPI assessment memorandum prepared in accordance with MDA guidance.
   •   Based on the identification of CPI, a program protection plan was drafted. The
       program protection plan is treated as a living document and is updated on a
       continuous/as needed basis until approved, and the program office is awaiting the
       multidisciplinary counterintelligence threat assessment from the
       counterintelligence personnel before moving forward with program protection
       plan approval.
   •   The program’s security classification guide was initiated and included CPI
       protection information and they are awaiting the multidisciplinary
       counterintelligence threat assessment from the counterintelligence personnel
       before finalizing the draft security classification guide.



                             FOR OFFICIAL USE ONLY
                                       3
2. Program Protection Planning
This issue area was assessed to determine whether published guidance for the planning of
program protection is relevant and adhered to by program, intelligence, counter-
intelligence, and security personnel and to ensure that program protection planning was
in accordance with DoD Instruction 5200.39 and corresponding Service policy.

DoD Office of Inspector General
Because the Air Force ACAT ID program office had not completed its program
protection plan; we were unable to assess the plan’s effectiveness. The program was
taking the steps to formally notify the prime contractor, second-tier integrator, and
relevant subcontractors of the potential existence of CPI, and had plans to direct
appropriate protection measures. However, Defense Security Service (DSS) personnel
were not informed that program CPI resided within the prime contractors’ and
subcontractors’ facilities. One reason was that the presence of CPI was not identified in
the DD Form 254. Program management offices should notify the DSS office covering
cleared contractor facilities holding CPI of the CPI presence, nature, and any special
concerns (unique compromising characteristics). Publishing guidance that provides
model contract language would make it easier for programs to contract for CPI
protection. Program management offices should:

   •   provide the DSS with the program protection plan and the program office’s
       specific requirements for the cleared contractor and the related documents for the
       protection of CPI, a list of the related counterintelligence and security risks to the
       contractor, and a copy of the relevant counterintelligence support plan;
   •   ensure that contracts require the prime contractor to participate in the
       identification of CPI and to implement countermeasures for identified CPI at
       contractor facilities;
   •   ensure contracts and DD Forms 254 include clauses authorizing certain
       Government personnel access to prime contractor and subcontractor facilities to
       conduct surveys, assessments, inspections, and investigations as necessary to
       make sure CPI is properly protected; and
   •   include language in contracts that the prime contractor must:
           o communicate program protection requirements to subcontractors that will
               have access to or will be providing CPI,
           o require subcontractors to continually monitor protection measures, and
           o monitor the subcontractors’ performance monitoring.

Once the program protection plan is complete, the PM should fully implement
countermeasures articulated in the program protection plan, meeting specific milestone
dates for their implementation; develop a tracking system for monitoring the
implementation of the countermeasures; conduct site visits to assess the contractor’s
implementation of the countermeasures; and use the results of the site visits to evaluate
the effectiveness of the countermeasures. The PM should also require the contractor to
prepare a program protection implementation plan to inform the program management
office how the contractor intends to protect CPI and implement the countermeasures
articulated in the program protection plan.




                             FOR OFFICIAL USE ONLY
                                       4
Guidance was not developed that specifically addressed the protection requirements for
CPI that resides on contractor-owned and -operated information systems. The DoD Chief
Information Officer, in coordination with the USD(AT&L) and the Under Secretary of
Defense for Intelligence (USD(I)) agreed to our recommendation to develop and publish
security requirements for contractors processing CPI on contractor-owned and -controlled
information systems; to which they concurred and initiated a Defense Federal Acquisition
Regulation System case in March 2011.

The program staff requested and was provided the required counterintelligence and
intelligence support and threat-related data. However, the threat data was not timely,
affecting the PM’s ability to formulate and implement an effective program protection
plan. Furthermore, the threat data was not tailored to the CPI, decreasing the utility for
program staff. The modular approach of the Virtual System Threat Assessment Report
may offer a more streamlined process for creating and updating System Threat
Assessment Reports.

Office of the Army Inspector General
Identified CPI was incorporated into program protection plans at all facilities inspected in
2011.

Office of the Naval Inspector General
In general, Navy PMs are trained on program protection planning processes for
protecting CPI and on overall DoD and Navy acquisition security requirements. CPI
elements were identified and incorporated into a program protection plan. Ability to
correctly identify CPI elements at other facilities remains under examination as of this
report. In addition, security personnel were working closely with other competencies to
protect CPI through anti-tamper and CPI protection contract clauses. Specific attention
and support is being provided to the Science and Technology office in order to build
program protection plans into small business and rapid development contracts.

Office of the Air Force Inspector General
During the Office of the Air Force IG’s inspection, two unit PMs did not seek milestone
decision authority or commensurate execution authority approval in writing affirming
that a program protection plan was not required due to the absence of CPI associated with
their program’s technologies. A system PM did develop and implement a program
protection plan with cooperation from staff elements (i.e., security, foreign disclosure,
counterintelligence, intelligence, modification managers, systems engineering, test and
evaluation, technical staff and others) external to the program. As a result, one unit has
accomplished a program protection plan waiver to document “No CPI” determinations
and the other is developing a program protection plan waiver to document its “No CPI”
determination.

Missile Defense Agency
MDA’s internal audit of their CPI/program protection plan procedures determined they
were appropriate and complied with both DoD and MDA policies to prevent the
unauthorized disclosure of critical information. MDA limited the scope to the first phase
of the program protection process—the CPI assessment phase—since only one MDA
program had initiated the new process and had not begun the other phase. MDA
determined the control and oversight for the CPI Assessment phase was adequate to
protect CPI within MDA and horizontally across DoD and comply with applicable DoD
and MDA guidance and instructions.

                              FOR OFFICIAL USE ONLY
                                        5
MDA’s Research, Development and Acquisition Security Directorate recognized the
need for CPI reassessments and proactively prioritized needed program protection plan
assessments. Based on reviews for currency and appropriate approvals, MDA identified
three of seven program protection plans were not completed and approved - two are
already undergoing a reassessment review and the third, MDA is seeking the appropriate
disposition.

3. Training and Education to Protect Critical Program
Information, Critical Functionality, and Critical
Components
This issue area was assessed to determine whether published guidance for training to
identify and protect CPI is relevant and adhered to by program, intelligence,
counterintelligence, and security personnel.

DoD Office of Inspector General
We determined that training and education for the protection of CPI was not tailored to
the specific roles that are involved in RDA protection. While the amount of experience
varied, the majority of the personnel interviewed about Air Force and the ACAT ID
program CPI protection efforts had many years of experience on major weapon system
acquisition programs. However, the level of training related to CPI protection varied.
There were personnel with no training, those with training acquired on the job, and others
with training offered by the RDA program support organization.

Available training varied significantly. The level 1 and 2 acquisition courses at the
Defense Acquisition University minimally address counterintelligence, intelligence, and
security support to RDA protection. Training did not entail a review of the program
protection process, including CPI assessment and the generation of the technology and
protection plans. The Joint Counterintelligence Training Academy offers counter-
intelligence support to RDA protection training and provides advanced counter-
intelligence training to Defense counterintelligence components. The Academy also
provides training to other intelligence community personnel on a limited basis. However,
the counterintelligence support to RDA protection training is not structured for non-
counterintelligence personnel, who typically provide a large share of the RDA protection
support to PMs.

In April 2011, the Defense Security Service created an “Introduction to Critical Program
Information” course, an introductory, web-based course for DoD or Defense Industrial
personnel working on programs which may contain CPI. The training covers the purpose
and identification process of CPI, including an explanation of how CPI identification and
required continuous security protection procedures fit into the Defense acquisition life
cycle. The course provides policy guidance, steps taken to identify CPI (threat
assessment, vulnerabilities, risk management), required procedures to support CPI, and a
review of the program protection plan and countermeasure requirements.

There was no tailored CPI protection training. In fact, intelligence and security-related
training for the protection of CPI is inconsistent. Training tailored to participants’ roles
needs to be developed and made available by the organization most able to deliver it
effectively and efficiently. Research, development, and acquisition program support
organizations, the Defense Acquisition University, and the Defense Security Service
should be considered as delivery mechanisms for training.


                              FOR OFFICIAL USE ONLY
                                        6
We recommended that the USD(AT&L), in collaboration with the USD(I), and the DoD
Chief Information Officer develop standardized guidance for training in CPI protection
for use by the RDA protection community; to which they concurred.

Office of the Army Inspector General
Operations Security (OPSEC) training was occurring in all facilities inspected, however,
employee knowledge of Essential Elements of Friendly Information could be better.
Most facilities had their Essential Elements of Friendly Information posted in common
areas and also in office cubicles, so knowledge improved over previous years. All
OPSEC Officers inspected had attended required training classes.

Office of the Naval Inspector General
Many CPI protection countermeasures identified in the DoD IG guidelines are beyond the
skill set of security specialist inspectors and reflect a requirement for acquisition manager
expertise to credibly inspect.

Overall, the programs inspected are properly staffed and the personnel are adequately
trained. The security programs are robust, required training is conducted during New
Employee Orientation, internal training resources are highlighted, and security awareness
bulletins are posted on the SharePoint portal on a periodic basis. An internal OPSEC
training module is provided that satisfies annual training requirements, and gives
guidance on OPSEC policies and practices, including social media awareness.

One item worth mentioning is the user-friendly and helpful Space and Naval Warfare
Systems Command Web 2.0, which is the internal web page that includes security blogs,
educational wikis, and, other information, the latest in CPI policy and strategy. Also, it
provides personnel with automated tools to complete various levels of security education
requirements and its OPSEC Observer is an excellent initial reference resource for CPI
and export controls.

Office of the Air Force Inspector General
In the area of training and education to protect CPI, three units failed to implement
specific training programs. Therefore, personnel were not informed on the efforts,
procedures and methods of protection. Development of a training plan was
recommended.

Missile Defense Agency
MDA’s Research, Development and Acquisition Security Directorate developed helpful
and creative CPI training for MDA programs going through Phase 1-- CPI Assessment.
The Directorate plans to provide additional training when programs get to the next phase
of the CPI process. The Directorate also provided a virtual toolbox to further educate and
train responsible personnel in the identification and protection of CPI.

4. Use of Resources/Billets to Protect Critical Program
Information, Critical Functionality, and Critical
Components
This issue area was assessed to determine whether program, intelligence, counter-
intelligence, and security personnel assigned to protect CPI are appropriately used.


                              FOR OFFICIAL USE ONLY
                                        7
DoD Office of Inspector General
The Air Force ACAT ID program did not have embedded program security support. The
program received security support from a Wing, which in addition to the ACAT ID
program supported at least 14 other programs.

The program management office did not track all security costs. The draft program
protection plan included estimated costs for program protection in the following
categories: Systems Security Engineering, Information Security Program Management,
and Security Management/Oversight. However, the program protection plan stated,
“program protection costs associated with these categories are predominantly embedded
costs as no program protection-specific work breakdown structures were established at
contract award.” Further, costs related to Systems Security Engineering, to include
program personnel, are considered embedded costs and these costs cannot be easily
identified or captured for estimating purposes.

Interviews of Air Force Office of Special Investigations (AFOSI) personnel noted a level
of uncertainty about who has access to the CPI, as well as the method and timing for
when they should be notified of such access. The interviews also noted uncertainty
regarding processes for identifying the presence of CPI and controlling access to CPI;
specifically, who can or should be informed. Additionally, AFOSI production of tailored
threat products was being impacted by lack of resources, as well as the level of technical
competencies of the analysts. The AFOSI analysts at the Integrated Threat Assessment
Cell lacked engineering competencies that would assist in the analysis of science and
technology matters. These analyst’s backgrounds were primarily in the
counterintelligence arena. Also, wartime levies on AFOSI personnel stretched thin the
numbers of agents and their levels of RDA protection experience.

The DSS is responsible for approximately 13,000 cleared facilities. According to the
DSS, there is a sizable deficit of industrial security representatives to cover cleared
facilities as well as counterintelligence personnel to provide support to the protection of
CPI in cleared companies. On January 15, 2009, the Deputy Secretary of Defense signed
a memorandum directing that the resources necessary to implement recommendations
from a 2008 Defense Security Service Future Options Study be added to the Defense
Security Service program for FYs 2010-15.

These resources include 450 civilian full-time equivalents to strengthen the Defense
Security Service and allow it to more effectively accomplish its mission: industrial
security, education and training, counterintelligence, and information technology.
Although the number of counterintelligence personnel supporting the CPI threat
assessment process is increasing, the ratio is still approximately 1 counterintelligence
agent to 300-400 cleared defense facilities.

The Air Force ACAT ID program did not fully track security costs, nor did they report
program protection or security-related expenditures. Tracking and reporting these
expenditures assists program management offices with establishing budget projections
for security throughout the program’s life-cycle and with measuring the return on the
security expenditures.




                              FOR OFFICIAL USE ONLY
                                        8
In DoD IG Report No. 10-INTEL-09, “Assessment of Security Within the Department of
Defense – Tracking and Measuring Security Costs,” August 6, 2010, we recommended a
comprehensive and integrated security framework to facilitate tracking security costs,
more accurately programming future years security budgets, and examining the return on
investment for security expenditures, to which management concurred and draft DoD
Directive 5200.LL, “Management of the Defense Security Enterprise,” is expected to be
signed by the Deputy Secretary of Defense in third quarter 2012.

Also, the newly created Defense Security Enterprise Executive Committee, which was
created by the draft directive, was established and held its inaugural meeting on
January 12, 2012. At that meeting security costs were discussed and the Executive
Committee is currently researching additional information and guidance for identifying
and tracking security costs. Both the Directive and the and the Defense Security
Enterprise Executive Committee will begin the process of establishing a comprehensive
and integrated security framework for the Department, to include developing DoD
security cost factors to better track security costs, more accurately program future years
security budgets, and examine the return on investment for security expenditures.

Office of the Army Inspector General
The Office of the Army IG did not note any significant findings in this area this year.

Office of the Naval Inspector General
The Office of the Naval IG did not note any significant findings in this area.

Office of the Air Force Inspector General
The Office of the Air Force IG did not inspect this area.

Missile Defense Agency
The Missile Defense Agency’s auditors did not note any significant findings in this area.

5. Security, Intelligence, and Counterintelligence
Support to Protect Critical Program Information, Critical
Functionality, and Critical Components
This issue area was assessed to determine whether published guidance to enable
counterintelligence, intelligence, and security personnel and programs to support the
protection of CPI is relevant and adhered to by program, intelligence, counterintelligence,
and security personnel.

DoD Office of Inspector General
The Air Force ACAT ID program staff did request and were provided requisite
counterintelligence and intelligence support and threat-related data. However, because
threat data was neither timely nor tailored to the CPI, it adversely affected the PM’s
ability to formulate and implement an effective program protection plan. Moreover,
while counterintelligence personnel were known to program staff, DSS personnel were
not. As a result, the DSS was not informed of the existence of CPI, nor was a program
office point of contact for reporting violations annotated on the DD Form 254.




                             FOR OFFICIAL USE ONLY
                                       9
Counterintelligence support personnel were known to program management office
personnel, participated in the CPI identification process, and prepared a
counterintelligence support plan. The counterintelligence support plan contained
sufficient detail for program management office personnel to understand the support that
they could expect to receive from counterintelligence support personnel. Additionally, in
accordance with the counterintelligence support plan, an integrated threat assessment was
requested from AFOSI’s Integrated Threat Assessment Cell. Program protection
oversight personnel expressed concern that intelligence and counterintelligence threat
products were not timely, thereby adversely impacting the PM’s ability to formulate and
implement an effective program protection plan once CPI was identified.

DoD and Air Force policies require the PM to immediately develop a program protection
plan. The program protection plan guides the development of enhanced controls and
establishes cost effective countermeasures for the protection of CPI based on the existing
threat. Intelligence and counterintelligence threat products inform the formulation of
program protection plans and allow the PM to make informed, objective, risk-based
decisions resulting in the most cost-effective countermeasures for the protection of CPI.
The production of threat products may take up to 180 days or more from the time CPI is
identified. However, DoD Manual 5200.1-M, paragraph C2.4.2 states that the DoD goal
for the return of a complete multidisciplinary counterintelligence threat assessment is 120
days from receipt of the request. Moreover, paragraph C2.4.3 states that to facilitate the
preparation of an initial draft program protection plan, a summarized collection threat
assessment should be provided to the program within 30 days of the request.

Threat products were taking in excess of 180 days from when they initiated their
production process to the development of their integrated threat assessment product. The
integrated threat assessment was an alternative to the DoD Manual 5000.1-M mandated
multidisciplinary counterintelligence threat assessment, which is required to be a CPI-
centric tailored threat assessment. The integrated threat assessments that were reviewed
were not CPI-focused tailored threat assessments; nor did program officials believe the
product was particularly useful.

The System Threat Assessment Report is a DoD 5000 series mandated intelligence
product that must be reviewed by the Milestone Decision Authority at milestones B and
C. The System Threat Assessment Report describes the future operational threat
environment, the system-specific threat, and any reactive threats that could affect
program decisions. The System Threat Assessment Report also addresses CPI in the
subject weapons platform, but from a perspective of the threat at the time of fielding and
in the battlespace. In response to the request from the program and in an attempt to
deliver a more timely and relevant System Threat Assessment Report, the National Air
and Space Intelligence Center recently used an innovative approach called the Virtual
System Threat Assessment Report to produce a responsive intelligence product. The
program’s System Threat Assessment Report evolved from a series of Virtual System
Threat Assessment Reports, a new methodology for building threat assessments for Air
Force and Air Force-led force modernization programs.

The Virtual System Threat Assessment Report supplements the traditional paper System
Threat Assessment Report with a modular, online product that is more up-to-date, easier
to maintain, and more efficient to produce. The Virtual System Threat Assessment
Report significantly expands the use of hyperlinks to provide the user with direct access
to Intelligence Community reporting and databases for details on specific threat systems.
Although the threat annexes in Appendix B of the System Threat Assessment Report are
current, the online version will be continuously updated and provide a more general
assessment of the overall threats.
                             FOR OFFICIAL USE ONLY
                                       10
The improved methodology resulted in a better crafted and more focused product for the
program. However, as with the integrated threat assessment, program personnel believed
the System Threat Assessment Report was not provided in a timely manner. They
believed the milestone decision point was too late in the process for the System Threat
Assessment Report to effectively inform program decisions; having the impact later may
mean re-doing or re-thinking the design. Delayed receipt of the System Threat
Assessment Report could have impacted cost, schedule, and performance of the
acquisition program resulting in re-programming if the delayed report had revealed
intelligence information, unknown at the time the acquisition plan was formulated, which
could have negatively impacted systems capabilities.

In accordance with DoD Instruction 5200.39, the DSS assists DoD counterintelligence
elements in coordinating the execution of counterintelligence support plans at the
facilities of cleared defense contractors with classified CPI. The contract’s DD Form
254, which includes security requirements and classification guidance for facilities with
classified contracts, should indicate the existence of CPI so that the DSS will know what
areas need enhanced levels of protection.

The DD Form 254 also needs to identify cleared defense contractors working on
classified contracts with classified or unclassified CPI, as well as employees with access
to the locations where classified contracts with classified or unclassified CPI reside. The
DSS is developing procedures to centralize the receipt, analysis, and dissemination of
such information in a manner that permits maximum control and use. Defense PMs must
furnish the DSS with a copy of the program protection plan and counterintelligence
support plan to adequately provide overlapping counterintelligence support to protect
CPI. In addition, the identification of all subcontractors working on classified programs
with classified or unclassified CPI as well as a program point of contact would further
improve the protection of CPI.

Specific to the program, there was insufficient communication between the DSS and the
prime contractor regarding subcontractors and the requirements established by program
office staff for the protection of CPI. While program CPI is unclassified, it resides in a
classified facility and the information still requires a greater level of protection than non-
critical program information. The DSS was not informed of the existence of program
CPI. It was not indicated in the DD Form 254, and there was no communication between
the DSS and program office staff. Moreover, there was no place on the DD Form 254 to
identify which subcontractors possessed CPI. If the program’s DD Form 254 had
specified the existence of unclassified CPI and the requisite protection measures, the DSS
could have incorporated CPI protection requirements into its facility inspections. The
DD Form 254 could also have included a program point of contact for reporting
violations and counterintelligence concerns. With this information, DSS could have
assisted in efforts to safeguard CPI by reviewing the levels of CPI protection during the
course of regular inspections of the cleared defense facility.

Office of the Army Inspector General
The Office of the Army IG noted that counterintelligence support, provided by elements
of the 902nd Military Intelligence Brigade, is being stretched thin due to deployments and
a high operational tempo for 902nd counterintelligence agents. The inspected facilities all
reported that they received outstanding support from the 902nd Military Intelligence
Brigade, but their supporting office was short-handed due to deployments and support
was more “on-call” than in previous years.


                              FOR OFFICIAL USE ONLY
                                        11
Office of the Naval Inspector General
At one headquarters, there is dedicated and sufficient counterintelligence support
consisting of four Naval Criminal Investigative Service (NCIS) agents providing full-
time, on-site presence. Counterintelligence support to program protection planning,
foreign collection threats and awareness briefs is adequate. Counterintelligence
analytical support is provided through reach-back to subject matter experts at NCIS
headquarters. However, given the nature of research and development, along with the
known threat and exploitation efforts of any number of Foreign Intelligence Services, on-
site agents are encouraged to conduct a more aggressive out-reach effort in order to foster
closer working relationships with the intelligence, counterintelligence, and law
enforcement communities.

It was noted during inspections of other organizations that highly successful security
programs are often enhanced by close, cooperative, and effective working relationships
between individuals, and a sound policy. Where a counterintelligence support plan is in
place, the NCIS provides substantive counterintelligence support through a dedicated
NCIS agent presence. For FY 2012, NCIS has adopted a new support concept that
focuses on known threats against specific technologies. By concentrating on specific
critical technologies facing known intelligence threats, NCIS hopes to optimize its
investment in supporting security and counterintelligence efforts.

Office of the Air Force Inspector General
Five of six PMs did not adequately use the counterintelligence threat assessment with
system-specific CPI and vulnerabilities to develop appropriate countermeasures. PMs
lacked knowledge of system specific CPI and were unfamiliar with their
counterintelligence threat assessments. As a result, it was recommended that PMs and
the system security working group use integrated threat assessments provided by AFOSI
to develop appropriate countermeasures and provide documentation for program
protection planning and system security working group minutes at all meetings. PMs will
also include support contractors in program protection efforts.

Missile Defense Agency
MDA auditors found that counterintelligence personnel were involved early in the CPI
assessment phase, participating in the integrated product teams.

6. Foreign Visits Program
This issue area was assessed to determine whether published guidance for foreign visits is
relevant and adhered to by program, intelligence, counterintelligence, and security
personnel.

DoD Office of Inspector General
As part of our assessment to determine whether published guidance for foreign visits is
relevant to and adhered to by program, intelligence, counterintelligence, and security
personnel, we also assessed this issue area because in a policy letter, “Accountability of
Department of Defense (DoD) Sponsored Foreign Personnel in the United States (U.S.),”
May 18, 2004, the Deputy Secretary of Defense requires all IGs to verify compliance
with the sponsored foreign personnel policy through their inspection processes.




                             FOR OFFICIAL USE ONLY
                                       12
We also assessed this issue area to ensure that decisions to grant foreign nationals access
to classified and controlled unclassified information during their visits to DoD
Component and cleared contractor facilities are consistent with the security and foreign
policy interests of the United States and DoD Directives 5230.11, 5230.20, and 5530.3. 2
If there is to be foreign involvement in any aspect of a program or foreign access to the
system or its related information, the program protection plan should contain provisions
to deny inadvertent or unauthorized access.

The Air Force ACAT ID program management office did not have any foreign
government or international organization involvement in program development. It was
noted, however, that some programs that will be part of the system of systems that the
program will support have international aspects.

If a cooperative development arrangement with a foreign government or international
organization is contemplated in the future, an international agreement should be
negotiated, and the required documents, such as the summary statement of intent and the
delegation of disclosure authority letter, will detail the countermeasures necessary to
protect U.S. Air Force information and technology under such a program. With regard to
any potential of a foreign military sale (including coproduction), the ACAT ID program
management office will defer to the Deputy Under Secretary of the Air Force for
International Affairs and the Assistant Secretary of the Air Force for Acquisition for the
formulation of the Air Force export policy for the program.

Office of the Army Inspector General
The Office of the Army IG found no significant findings in this issue area.

Office of the Naval Inspector General
The Office of the Naval IG found that a more robust database program would no doubt
enhance security, but inspections did find evidence that foreign visit request vetting
against known program security restrictions is generally effective.

Office of the Air Force Inspector General
The Office of the Air Force IG found that unit PMs did not complete a technology
assessment/control plan when foreign participation was authorized. As a result, the unit
completed the technology assessment/control plan and expanded the system security
working group process to include all stakeholders. A step-by-step checklist was also
implemented, to ensure future compliance with technology assessment/control plan
requirements prior to initial acquisition board and acquisition strategy panel.

Missile Defense Agency
MDA assessed the International Security, Security & Emergency Management, and
Counterintelligence Directorates to assess the procedures for processing foreign national
and foreign visitor requests and further, that MDA’s control and oversight for foreign
nationals and visitors to prohibit unauthorized disclosure of military information
complies with applicable DoD and MDA guidance and instructions.



2
 DoD Directive 5230.11, “Disclosure of Classified Military Information to Foreign Governments and
International Organizations,” June 16, 1992; DoD Directive 5230.20, “Visits and Assignments of Foreign
Nationals,” June 22, 2005; and DoD Directive 5530.3, “International Agreements,” June 11, 1987.

                                 FOR OFFICIAL USE ONLY
                                           13
MDA reviewed whether the in-place procedures and associated controls were adequate to
prevent the unauthorized disclosure of military information to foreign nationals and
visitors. MDA personnel examined the five most recent foreign national and visitor
requests. MDA, during their self-assessment found:

   •   MDA uses the Foreign Visits System - Confirmation Module, to document all
       visits (walk-in, scheduled, or unscheduled) to MDA facilities. International
       Security personnel complete Foreign Visitor Data Sheets for each foreign national
       or foreign visitor seeking access to MDA facilities and all data collected is
       entered into the Foreign Visits System - Confirmation Module. MDA Security
       Operations Center PM is responsible for updating the Foreign Visits System -
       Confirmation Module and filling in all required fields.
   •   Foreign nationals and visitors do not have access to information systems at MDA.
   •   Foreign nationals and visitors are required to wear yellow badges indicating their
       foreign visitor status, even if they are accredited and assigned as a foreign liaison
       officer. They must present picture identification and current passport number for
       access into MDA facilities. Request for foreign national visits are coordinated by
       international security personnel and front desk security personnel at facilities to
       be visited.
   •   (FOUO) Incoming foreign national and visitor requests are also coordinated by
       international security personnel with the Counterintelligence Directorate.
       Counterintelligence personnel check all available data on visitors and determine
       the threat level for the visit. The assigned threat level determines the visitor’s
       access to MDA facilities and personnel. Should counterintelligence personnel
       identify a potential threat associated with a visit, additional threat mitigation
       measures are taken before the visit.
   •   Counterintelligence personnel routinely provide threat briefings and regular
       training to MDA employees prior to any foreign national or visitor arrival. In
       addition, counterintelligence personnel conduct debriefings at the conclusion of
       each visit.

7. Horizontal Protection of Critical Program Information,
Critical Functionality, and Critical Components
This issue area was assessed to determine whether published guidance for horizontal
protection is relevant and adhered to by program, security, intelligence, and
counterintelligence personnel. We assessed the issue area to ensure that critical Defense
technologies, to include CPI, associated with more than one RDA program are protected
to the same degree by all involved DoD activities

DoD Office of the Inspector General
DoD Instruction 5200.39 states that it is DoD policy to conduct comparative analysis of
defense systems technologies and align CPI protection activities horizontally throughout
DoD.

The DoD Instruction 5200.39 requirement that a horizontal protection database be used in
support of the identification of CPI was further solidified on July 22, 2010, when the
USD(AT&L) issued a memorandum designating the Acquisition Security Database as the
horizontal protection database for the Department. The Acquisition Security Database is
now under the control, oversight, and management of the Director, Defense Research and
Engineering, and currently tracks 728 programs.


                             FOR OFFICIAL USE ONLY
                                       14
In the memorandum, the USD(AT&L) states that the Heads of DoD Components use the
Acquisition Security Database to execute mission requirements for the horizontal
protection of DoD Component CPI. The memorandum also states that within 90 days,
the Heads of DoD Components shall submit their respective plans for entering current,
future, and legacy RDA programs/projects into the Acquisition Security Database and for
updating these records at each milestone.

The Acquisition Security Database, a horizontal protection database, provides the RDA
community with greater access to CPI. Use of a single horizontal protection database by
the RDA community would represent an important step toward greater protection of
DoD’s CPI. Once the RDA community is populating a single horizontal protection
database, RDA protection practitioners will be able to view all programs with similar CPI
to help ensure consistent RDA protection support and decrease the mishandling or
inadvertent compromise of CPI, especially with respect to CPI that is inherited from other
RDA programs.

Air Force Pamphlet 63-1701, requires the System Security Working Group make
horizontal protection determinations for identified CPI, but there is no policy or standard
process for review of databases to accomplish this objective. Program officials stated
that horizontal protection was considered and the Acquisition Security Database was
consulted during the conduct of the System Security Working Group. However, the Air
Force had developed its own horizontal protection database. Recent guidance provides a
way ahead for the Air Force to use the Acquisition Security Database exclusively for
horizontal protection purposes. This will ensure consistent application of horizontal
protection across services and acquisition programs.

Office of the Army Inspector General
The Office of the Army IG found no significant findings in this area.

Office of the Naval Inspector General
The Office of the Naval IG found that there is no clear cohesive horizontal protection
strategy of CPI across the Navy at this time; however, the Deputy Assistant to the
Secretary of the Navy for Research, Development, Test and Evaluation plans to
implement the USD (AT&L) memorandum, “Document Streamlining – Program
Protection Plan,” July 18, 2011, and Directive-Type Memorandum 09-016 – “Supply
Chain Risk Management (SCRM) to Improve the Integrity of Components Used in DoD
Systems,” March 25, 2010. Therefore, the Department of the Navy now requires ACAT
ID, IAM and Special Interest programs to follow the July 18, 2011, memorandum.
ACAT IC, ACAT II thru ACAT IV, and Abbreviated Acquisition Programs will tailor
the memo to their program. This new approach to program protection plan expands the
existing DoD IG guidance criteria and recognizes program protection as the Navy's
holistic approach for delivering trusted systems. The priority for memo implementation
will be ACAT ID programs as the Navy conducts a phased approach to Navy Enterprise
implementation of the memo.

Office of the Air Force Inspector General
The Office of the Army IG did not inspect this area of the guidelines.




                             FOR OFFICIAL USE ONLY
                                       15
Missile Defense Agency
MDA reviewed programs with CPI to determine whether they developed a program
protection plan and sampled three to determine whether CPI information was recorded
and tracked into the DoD Acquisition Security Database, for horizontal protection: MDA
reviewed program protection plans for seven MDA programs to determine whether they
were current and appropriately approved. Four of the seven programs had a completed
and appropriately approved program protection plan. Three of the seven programs did
not have a completed and appropriately approved program protection plan. The
information on CPI from the three sampled programs matched the information in the
Acquisition Security Database. CPI in the program protection plans and the Acquisition
Security Database matched for the three sampled programs because actions of MDA’s
Research, Development and Acquisition Security Directorate horizontally protected CPI
by appropriately recording it in the Acquisition Security Database.

8. Policies to Protect Critical Program Information,
Critical Functionality, and Critical Components
This issue area was assessed to determine whether published guidance for the
identification and protection of CPI is relevant and adhered to by program, intelligence,
counterintelligence, and security personnel.

DoD Office of the Inspector General
We primarily assessed RDA protection efforts using DoD Instruction 5200.39; however,
there are many issuances on related areas, and from multiple agencies that address RDA
protection.

Air Force policies do not focus on total integration of security, intelligence, and
counterintelligence throughout a program’s lifecycle. It was noted that Air Force policies
on program protection, namely Air Force Policy Directive 63-17 and Air Force Pamphlet
63-1701, reference out-of-date DoD policy and were developed prior to the Air Force’s
establishment of its Integrated Lifecycle Management Enterprise policies. Consequently,
the primary Air Force policies focused on the protection of CPI are not consistent with
Air Force Instruction 63-101, and can cause confusion in terms of Air Force policy
definitions relative to CPI.

The program office has yet to negotiate and agree on specific protections to be
implemented for the sites hosting CPI. DoD Instruction 5200.39 guidance on this subject
has yet to be promulgated. Enclosure 2, paragraph 4.b. of DoD Instruction 5200.39 tasks
the DoD Chief Information Officer to “identify minimum security requirements for
contractor owned and operated information systems for the protection of CPI.”
Directive-Type Memorandum 08-027, “Security of Unclassified DoD Information on
Non-DoD Information Systems,” July 31, 2009, addresses security requirements for
contractors processing DoD information on non-DoD information systems and may
provide a model for this, but it does not address the protection of CPI specifically.

Office of the Army Inspector General
The Office of the Army IG did not inspect this area of the guidelines.




                             FOR OFFICIAL USE ONLY
                                       16
Office of the Naval Inspector General
The Office of the Naval IG found that the full implementation of the new USD (AT&L)
policies would make great strides towards delivering trusted systems to the warfighting
community. However, that implementation will require application of new skills and
some revision to the Navy’s current “command inspection” approach to research and
technology protection.

Office of the Air Force Inspector General
The Office of the Air Force IG inspected this area and found no deficiencies in this area.

Missile Defense Agency
MDA reviewed the CPI/program protection plan guidance to determine if there was
standardized and approved MDA guidance that was in accordance with DoD Instruction
5200.39. MDA has approved guidance on CPI/program protection planning with their
MDA Instruction, 5200.08-INS, “Critical Program Information (CPI) Protection Within
the Missile Defense Agency,” August 1, 2011. The Director, MDA approved MDA
Instruction, 5200.08-INS. The MDA Instruction is in accordance with DoD guidance,
and like the DoD Instruction, it directs the early identification of CPI and appropriate
protection throughout the system life cycle.

The MDA’s Research, Development and Acquisition Security Directorate developed a
standardized and repeatable process providing additional guidance and describing
detailed procedures for performing specific protection tasks in a draft CPI Protection
Manual, “Procedures for CPI Protection Within the Missile Defense Agency.” The
Directorate is instructing programs with CPI to follow the manual as standard operating
procedures.




                             FOR OFFICIAL USE ONLY
                                       17
Appendix A. Memorandum of Understanding




            FOR OFFICIAL USE ONLY
                      18
FOR OFFICIAL USE ONLY
          19
FOR OFFICIAL USE ONLY
          20
FOR OFFICIAL USE ONLY
          21
Appendix B. List of Service Facilities
Inspected
A. U.S. Army Research, Development, Test and
Evaluation Facilities Inspected During FY 2011
    1. Night Vision and Electronic Sensors Directorate, Fort Belvoir, VA
    2. Space and Missile Defense Technical Center, Space and Missile Defense
           Command, Redstone Arsenal, AL
    3. Aberdeen Test Center, Army Test and Evaluation Center, Aberdeen Proving
           Grounds, MD
    4. Engineer Research and Development Center, U.S. Army Corps of Engineers,
           Vicksburg, MS
    5. Redstone Technical Test Center, Army Test and Evaluation Command,
           Redstone Arsenal, AL
    6. Tank-Automotive Research Development Test and Evaluation Center, Army
           Materiel Command, Warren, MI

B. Navy Research, Development, Test and Evaluation
Facilities Inspected During FY 2011
    1. Surface Combat Systems Center, Wallops Island, VA
    2. Coastal Systems Station Dahlgren Division, Naval Surface Warfare
           Center, Panama City, FL
    3. Carderock Division, Naval Surface Warfare Center,
           West Bethesda, MD
    4. Naval Ship Systems Engineering Station, Carderock Division, Naval Surface
           Warfare Center, Philadelphia, PA
    5. Naval Surface Warfare Center, Indian Head Division, Indian Head, MD
    6. Naval Research Laboratory, Washington, DC

C. Air Force Research, Development, Test and
Evaluation Facilities Inspected During FY 2011
     1. Air Force Materiel Command, Electronic Systems Center/C2ISR
           Directorate/Space C2 and Surveillance Division, Peterson
           Air Force Base, CO
    2. Air Force Materiel Command, Aeronautical Systems Center Staff and 88th
           ABW Program Protection Functions, Wright-Patterson
           Air Force Base, OH
    3. Air Force Materiel Command, Aeronautical Systems Center Agile Combat
           Support Directorate, Wright-Patterson Air Force Base, OH


                        FOR OFFICIAL USE ONLY
                                  22
4. Air Force Materiel Command, Aeronautical Systems Center Mobility
       Directorate, Wright-Patterson Air Force Base, OH
5. Air Force Materiel Command, Aeronautical Systems Center Fighters and
       Bombers Directorate, Wright-Patterson Air Force Base, OH
6. Air Force Materiel Command, Aeronautical Systems Center ISR Directorate,
       Wright-Patterson Air Force Base, OH
7. Air Force Materiel Command, Oklahoma City Air Logistics Center Staff,
       Tinker Air Force Base, OK
8. Air Force Materiel Command, Oklahoma City Air Logistics Center/76th
        Maintenance Wing, Tinker Air Force Base, OK
9. Air Force Materiel Command, Oklahoma City Air Logistics Center/Aircraft
        Sustainment Directorate, Tinker Air Force Base, OK
10. Air Force Materiel Command, Warner-Robins Air Logistics Center Staff,
        Warner-Robins Air Force Base, GA
11. Air Force Materiel Command, Warner-Robins Air Logistics Center/402nd
        Maintenance Wing, Warner-Robins Air Force Base, GA
12. Air Force Materiel Command, Warner-Robins Air Logistics Center/Aircraft
        Sustainment Directorate, Warner-Robins Air Force Base, GA
13. Air Force Materiel Command, Air Force Office of Scientific Research, Joint
        Base Andrews/Arlington, VA
14. Air Force Materiel Command, Headquarters Air Force Research Laboratory,
        Wright-Patterson Air Force Base, OH
15. Air Force Materiel Command, Air Force Research Laboratory, Air Vehicles
        Directorate, Wright-Patterson Air Force Base, OH
16. Air Force Materiel Command, Air Force Research Laboratory, Materials and
        Manufacturing Directorate, Wright-Patterson Air Force Base, OH
17. Air Force Materiel Command, Air Force Research Laboratory, Sensors
        Directorate, Wright-Patterson Air Force Base, OH
18. Air Force Materiel Command, Air Force Research Laboratory, Propulsion
        Directorate, Wright-Patterson Air Force Base, OH
19. Air Force Materiel Command, Air Force Research Laboratory/Information
        Directorate, Rome, NY
20. Air Force Materiel Command, AF Global Logistics Support Center/448th
        Supply Chain Management Wing, Tinker Air Force Base, OK
21. Air Force Materiel Command, AF Global Logistic Support Center, 591st
        Supply Chain Management Group, Wright-Patterson Air Force Base, OH
22. Air Force Materiel Command, AF Global Logistic Support Center/448th
        Supply Chain Management Wing/638th Supply Chain Management
        Group, 404th Supply Chain Management Squadron, 405th Supply Chain
        Management Squadron, 406th Supply Chain Management Squadron,
        Robins Air Force Base, GA




                    FOR OFFICIAL USE ONLY
                              23
FOR OFFICIAL USE ONLY
